-
  -
from
                      CLOSEOUT FOR M92090036



     This case orisinated in an Ausust 24. 1992. tele~honecall
                     (the complainaGt to,--I
a Deputy Division Director in the DivisionB
(the division director).


a publication without permission.
    (the first subject) a         n
                                              - -
                                             of



                                                         -
                             The complainant alleged that two

(the Center) had used the complainant's data in a presentation-and
                                    The researchers are
                                            d (the second subject).
The division director referred this complaint to the OIG the
following day.      In subsequent correspondence and telephone
conversations with OIG, the complainant clarified and elaborated on
her allegations.
     The complainant was a graduate student at another institution
who came to the Center to use its facilities. While she was at the
Center, she worked on her research with the first subject, and,
during the course of their work, they enlisted the help of the
second subject. Their work involved analysis of data that the
complainant brought to the Center and that was central to her
dissertation research.
     The complainant's first allegation was that the first subject,
without the complainant's knowledge or consent, submitted an
abstract to a professional meeting that listed the complainant as
first author and used the complainant's data. At the time of the
submission, the first subject and the complainant were working
together to put the complainant's data into publishable form. The
first subject explained that he submitted the abstract without
obtaining the complainant's consent because he did not wish to
disturb the complainant while she was completing her dissertation.
After the submission, the complainant sent the first subject a
message thanking him for his action, but expressing her desire to
herself "mak[el this poster presentation featuring my work."
     OIG believes that the first subject should have consulted with
the complainant before submitting an abstract to a meeting and
should have come to agreement with her on the text of the abstract
before it was submitted. In this case, however, failure to do so
cannot be considered a serious deviation from accepted practice
                           page 1 of 3                      M92-36
                      CLOSEOUT FOR M92090036

because the first subject was himself engaged in preparing the work
for publication and because he provided the complainant with
authorship credit for the work involved.           In an ongoing
collaboration, the first subject1s action would likely, in the
absence of other aggravating factors, be interpreted as, at worst,
a misguided favor and not as misconduct in science.
     After the professional relationship between the complainant
and the first subject ended, the complainant alleged that she had
granted the first subject authorship credit for the work only out
of friendship, and not for his scientific contributions. At the
time of this incident, however, the complainant, while expressing
reservations about the first subject's conduct, did not allege that
the first subject misappropriated credit for their work or in any
way dispute the first subject's claim of authorship credit for the
abstract.    OIG believes that in this case the complainant's
response to the first subject's submission of the abstract
forecloses any possibility that the first subject's claim of credit
could later be found to be misconduct in.science.
     The complainant's second allegation was that the first subject
publicly humiliated her after she made a presentation of her
research at another professional meeting.        According to the
complainant, the first subject allegedly told other attendees that
the complainant did not know what she was talking about and made
other unflattering remarks. If the complainant's account of this
incident is accurate, OIG believes that the first subject violated
professional norms governing the relations between senior and
junior colleagues. OIG believes that professional norms governing
the open discussion and evaluation of ideas, however, make it
inappropriate to take action against the first subject for
violating norms of collegiality or making unflattering public
remarks about the work of a junior colleague. However rude and
unacceptable such behavior may be, it cannot be considered
misconduct in science.
     The complainant's third, allegation concerns the first
subject's allegedly unauthorized sharing and copying of her data.
In the course of the complainant's work with the subjects, the
first subject offered to proofread the complainant's dissertation.
The complainant sent him the draft, including, at the first
subject's re'quest, positive prints of certain data. The first
subject made copies of the data without the complainant's
authorization to do so. These data were an integral part of a
paper that the complainant and the subjects planned to publish, and
OIG believes that the subjects would have had reason to consider
themselves entitled to copies.      The complainant presented no
evidence that the first subject's action in this instance
significantly deprived the complainant of credit for her work.
Likewise, the complainant presented no evidence (and made no
                           page 2 of 3                      M92-36
                      CLOSEOUT FOR M92090036

allegation) that the first subject subsequently misused these data.
In the absence of evidence that the first subject had deprived the
complainant of credit or made unauthorized use of the data, OIG
concluded that this allegation should not be pursued further.
     The complainant's fourth allegation is that the second subject
used results from the complainant's dissertation in a presentation
at a professional meeting without the complainant's permission.
According to the complainant, the second subject's oral discussion
of this material was similar to that in a draft manuscript written
by the complainant and entrusted to the second subject for proof
reading. At the time the second subject used these materials, he
was listed as a co-author on the draft manuscript. The second
subject allegedly acknowledged the complainant as a source of data
for his presentation, but did not fully describe her contribution
and did not include her as a co-author of the presentation. When
the complainant confronted him, he allegedly explained that he
simply forgot to mention one aspect of her contribution. OIG does
not believe that in this case this alleged partial failure to
acknowledge a collaborator in an oral presentation can be
considered misconduct.
     Although the complainant alleged that the second subject
misappropriated her analysis in his oral presentation, she
acknowledged that the analysis in the written version of the second
subject's paper was his own and was not substantially the same as
hers. OIG decided that it would not be practicable to pursue a
claim that an oral presentation misappropriates an analysis from
the complainant's paper when (1) the only written record of that
presentation presents a substantially different analysis and ( 2 )
the allegedly misappropriated analysis comes from a paper of which
the second subject was a co-author.
     This inquiry is closed and no further action will be taken on
this case.




                           page 3 of 3
